                            CLOSEOUT FOR M-95060028




were different, the two proposals were virtually identical and proposed to do the same work. The
complainant alleged that the subject had submitted equivalent proposals simultaneously to NSF
and to the other agency without indicating he had done so.

        OIG noted that the subject listed the other agency proposal in the Current and Pending
Support section of his NSF proposal. The submission date for the other agency proposal
showed that he submitted the two proposals concurrently. NSF requires PIS to indicate on the
Cover Page of their proposals when they submit an equivalent proposal to other NSF programs or
to other fbnding agencies. The subject did not indicate on the Cover Page of his NSF proposal
that the other agency proposal was equivalent to his NSF submission.

      OIG received a copy of the subject's funded proposal from the other agency. OIG
compared the two proposals and found that, although most of the text was similar, the two
proposals differed in the organisms to be studied and some of the goals to be accomplished.

       At OIG's request, an NSF program officer, who was not involved in the initial
evaluation of the NSF proposal, compared the two proposals. He determined that the two
proposals were distinct scientifically and did not propose to do the same work.

       OIG concluded that there was no substance to the allegation that the subject had submitted
equivalent proposals simultaneously to NSF and to the other agency without indicating that he had
done so. This inquiry is closed and no further action will be taken.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 1 of 1
